OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S CUBA
PROGRAM
AUDIT REPORT NO. 9-516-07-009-P 

SEPTEMBER 25, 2007 





WASHINGTON, DC

     Office of Inspector General


     September 25, 2007

     MEMORANDUM

     TO:                  LAC/Cuba Program Director, David E. Mutchler
                          M/OAA/OD Director, Maureen A. Shauket
                          M/MPBP/POL Director, Subhi Mehdi

     FROM:                IG/A/PA Director, Steven H. Bernstein /s/

     SUBJECT:             Audit of USAID’s Cuba Program (Report No. 9-516-07-009-P)

     This memorandum transmits our final report on the subject audit. In finalizing the report,
     we considered your comments on the draft report and have included your comments in
     their entirety in Appendix II.

     This report includes 12 recommendations to strengthen certain aspects of USAID’s
     Cuba Program and related cognizant technical officer responsibilities, and USAID’s
     process of identifying the audit universe of U.S.-based nonprofit organizations that meet
     the Single Audit Act requirements.

     In your response to the draft report, you concurred, for the most part, with our findings
     and recommendations, and described actions planned and taken to address our
     concerns. Based on information provided in your response and further review of related
     documentation, we agreed to remove a finding and the related recommendation. To
     accommodate this revision, we renumbered the recommendations.

     We determined that final action has been taken on Recommendation Nos. 4 and 6, and
     these recommendations are considered closed upon final report issuance. Furthermore,
     management decisions have been reached on Recommendation Nos. 2, 3, 5, 7, 8, 9,
     11, and 12. Please coordinate final action on these recommendations with USAID’s
     Audit, Performance, and Compliance Division (M/CFO/APC).

     Management decisions were not reached on Recommendation Nos. 1 and 10 (as
     revised), as management’s response did not fully address our concerns, as discussed
     on pages 18 and 19. To reach a management decision on Recommendation No. 1, you
     will need to provide us, within 30 days, with your plan to identify the annual audit
     universe of U.S.-based nonprofit organizations that meet the annual expenditure
     threshold amount. To reach a management decision on Recommendation No. 10, you
     will need to provide us, within 30 days, with a description of how cognizant technical
     officers will document their required reviews of letter of credit and periodic advance
     financial status reports.

     I appreciate the cooperation and courtesy extended to my staff during this audit.
U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Findings ................................................................................................................. 4 


Did USAID ensure that audits required for Cuba Program 

grantees under the Single Audit Act were conducted? ..................................................... 4 


     USAID Needs to Ensure That 

     Required Audits Are Conducted.................................................................................. 4 


     Single Audit Act Requirements 

     Need to Be Clearly Articulated……….……………………………..................................7 


Were responsibilities and authorities for implementing 

and monitoring USAID’s Cuba Program clearly defined, 

assigned, and performed? ............................................................................................... 9 


     USAID Needs to Determine Whether 

     Awards Should Be Classified ...................................................................................... 9 


     Cognizant Technical Officer 

     Should Be Certified………….…………………………………………………….………..10 


     Periodic Advances and Letters of Credit 

     Need Cognizant Technical Officer Review……………………………………...….........13 


Other Matters………………………………………………………………………...................14 


     USAID Needs to Determine Whether 

     Grantees Should Be Vetted………………………………………………………………..15 


     Staffing Requirements Need 

     to Be Formally Assessed.………………………………………………………………….16 


Evaluation of Management Comments…………………………….………………….......18 


Appendix I – Scope and Methodology..........................................................................20 


Appendix II – Management Comments………………………………………………........23 


Appendix III – Responsibilities and Authorities Tested………………………………...28

SUMMARY OF RESULTS

USAID awards grants and cooperative agreements to U.S. universities and other U.S.
nongovernmental organizations to promote peaceful, nonviolent democratic change in
Cuba. These awards are designed to help build civil society by increasing the flow of
information on democracy, human rights, and free enterprise to, from, and within Cuba.
Initiatives include advocacy, both within Cuba and internationally, for instituting a rule of
law, protecting human rights—including freedom of press and information—and
encouraging civic participation. According to unaudited information provided by its Cuba
Program Office, USAID awarded approximately 40 grants and cooperative agreements,
totaling nearly $64 million, from the start of the program in 1996 through March 2007
(see page 2).

The Office of Inspector General conducted this audit to determine whether (1) USAID
ensured that audits required for Cuba Program grantees under the Single Audit Act were
conducted, and (2) responsibilities and authorities for implementing and monitoring
USAID’s Cuba Program were clearly defined, assigned, and performed (see page 3).

We determined that USAID did not ensure that audits required for Cuba Program
grantees under the Single Audit Act were conducted (see page 4). In addition,
responsibilities and authorities for implementing and monitoring USAID’s Cuba Program
were not clearly defined, assigned, and performed (see page 9).

Accordingly, this report includes recommendations that USAID develop a report to
identify the annual audit universe of U.S.-based nonprofit organizations that meet the
expenditure threshold amount; determine whether audits required for active Cuba
Program awards were conducted, and if not, ensure that audits are conducted; clarify
audit requirements in grants made to U.S. nonprofit organizations; clarify audit
requirements in the Cuba Program Annual Program Statement; clarify audit
requirements in the standard assistance cognizant technical officer (CTO) designation
letter; determine whether Cuba Program awards should be classified; verify that CTO
training and certification is up to date in the Bureau for Latin America and the Caribbean;
revise Automated Directives System (ADS) 303 to incorporate CTO training and
certification policies; revise ADS 202 to incorporate CTO training and certification
policies; require CTOs to review financial status reports for recipients with periodic
advances, and to evidence the review of letters of credit and periodic advances by
initialing and dating the reports (see pages 7, 8, 9, 10, 12, and 14).

Additionally, this report includes two recommendations related to other matters noted
during the audit. The first recommendation is that USAID should determine whether
Cuba Program grantees and their personnel should be vetted; the second is that USAID
should conduct analyses to identify Cuba Program Office staffing needs (see pages 16
and 17).

See page 18 for our evaluation of management comments.




                                                                                           1
BACKGROUND 

The Cuban Democracy Act of 1992 and the Cuban Liberty and Democratic Solidarity
(LIBERTAD) Act of 1996 authorized the President to provide assistance to individuals
and independent nongovernmental organizations to promote peaceful, nonviolent
democratic change in Cuba, through various types of democracy-building efforts. The
Presidential Commission for Assistance to a Free Cuba issued reports in 2004 and
2006, articulating a strategy used by USAID to assist in hastening the peaceful transition
to democracy in Cuba. To this end, USAID awards grants and cooperative agreements
to U.S. universities and other U.S. nongovernmental organizations. These awards are
designed to help build civil society, by increasing the flow of information on democracy,
human rights, and free enterprise to, from, and within Cuba.

USAID’s Washington-based Cuba Program is managed by a small office, under the
auspices of the Bureau for Latin America and the Caribbean. Because USAID does not
have staff or a mission in Cuba, USAID implements its assistance to Cuba through an
interagency process.1 USAID’s Cuba Program Office staff has not been able to obtain
Cuban visas since 2002.

According to unaudited information provided by the Cuba Program Office, USAID
awarded approximately 40 grants and cooperative agreements totaling nearly $64
million from the start of the program in 1996 through March 2007.2 These grantees were
U.S.-based organizations, most located in and around Miami or in Washington, D.C.
USAID’s program funding for fiscal year 2007 was $6.8 million—with $1 million
programmed by USAID’s Office of Transition Initiatives. Total funding for fiscal year
2008 is projected at $45.7 million and will be allocated to USAID and the Department of
State.




1
  In addition to USAID, these agencies include representatives from the Departments of State
(State), Commerce, the Treasury, and the National Security Council. State determines USAID’s
annual Cuba Program budget, while the interagency working group, cochaired by USAID and
State, reviews and clears unsolicited proposals submitted to USAID.
2
  These figures include awards and award modifications to approximately 30 different nonprofit
organizations. Grants and cooperative agreements are awards by which USAID provides
assistance to accomplish a specified program objective. A cooperative agreement involves
substantial involvement by USAID after the assistance is provided, while a grant does not. For
purposes of this report, nonprofit organizations awarded either a grant or cooperative agreement
are referred to as “grantees.”



                                                                                              2
AUDIT OBJECTIVES
The Office of Inspector General conducted this audit to answer the following questions:

•	 Did USAID ensure that audits required for Cuba Program grantees under the Single
   Audit Act were conducted?

•	 Were responsibilities and authorities for implementing and monitoring USAID’s Cuba
   Program clearly defined, assigned, and performed?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                          3
AUDIT FINDINGS

Did USAID ensure that audits required for Cuba Program
grantees under the Single Audit Act were conducted?
USAID did not ensure that audits required for Cuba Program grantees under the Single
Audit Act were conducted.3 Although USAID has a process that is intended to identify
the audit universe of U.S.-based nonprofit organizations that meet the annual audit
requirement, the process needs to be strengthened to ensure that required audits for
Cuba Program grantees are conducted.4 In addition, the Office of Management and
Budget’s (OMB) Circular No. A-133 audit requirements were not clearly articulated in the
awards tested, in the Cuba Program Annual Program Statement (APS), or in the
standard assistance cognizant technical officer (CTO) designation letter.5 These issues
are discussed in the following sections.

USAID Needs to Ensure That
Required Audits Are Conducted

    Summary: Federal regulations require that agencies that provide awards directly to
    a grantee ensure that A-133 audits are completed and reports are received in a
    timely manner. However, USAID’s process to identify the audit universe of U.S.
    based nonprofit organizations that meet the annual audit requirement did not
    ensure that required A-133 audits were completed and received in a timely manner.
    This was due to confusion over roles and responsibilities, and the lack of
    information flow to responsible parties. As a result, USAID could not ensure that
    required audits for Cuba Program grantees were conducted, increasing the risk that
    USAID funds are not being spent in accordance with laws and regulations, and that
    USAID is not getting the full value from its awards.




3
  The Single Audit Act of 1984, as amended, is intended to promote sound financial management
for Federal awards administered by nonprofit organizations. This Act requires a single
organization-wide audit upon which all Federal agencies rely, rather than grant-by-grant audits by
each agency providing Federal funding. The “single audit” covers the organization’s financial
statements, compliance with laws and regulations, and internal control systems.
4
  The Office of Management and Budget’s (OMB) Circular No. A-133 established requirements
and responsibilities for Federal agencies and nonprofit organizations under the Single Audit Act.
Circular No. A-133 requires that nonprofit organizations expending Federal funds of $500,000
($300,000 before January 1, 2004) or more in a year have the requisite audit. For purposes of
this report, these audits are referred to by their commonly known name, A-133 audits.
5
  USAID uses the term cognizant technical officer (CTO) in lieu of other commonly used U.S.
Government terms, such as “contracting officer’s technical representative,” because CTOs are
responsible for certain defined actions involving grants and cooperative agreements, as well as
contracts.



                                                                                                4
Circular No. A-133, Audits of States, Local Governments, and Non-Profit Organizations,
states that Federal agencies providing an award directly to a grantee should ensure that
audits are completed and reports are received in a timely manner. USAID’s Automated
Directives System (ADS) 591, Financial Audits of USAID Contractors, Grantees, and
Host Government Entities, states that USAID’s Bureau for Management, Office of
Acquisition and Assistance (OAA), Contract Audit and Support Division (CAS) is
responsible for identifying and maintaining the audit universe for U.S.-based
organizations and ensuring that required audits are conducted.

USAID’s process to identify the audit universe of U.S.-based nonprofit organizations that
meet the annual audit requirement did not ensure that required A-133 audits were
completed and received in a timely manner. CAS has a tracking system, called the
Audit Tracking System (ATS), for those A-133 audit reports that it receives. CAS
officials reported that it uses this database to identify its potential A-133 audit universe,
and periodically reviews the database to determine whether A-133 audit reports have
been submitted to the Federal Audit Clearinghouse (Clearinghouse).6 CAS officials
further reported that if an audit has not been filed with the Clearinghouse, CAS sends
letters to the grantees asking whether the grantee has expended $500,000 or more in
Federal funds during the fiscal year. However, CAS officials were not able to provide
documentation that these reviews had been performed or copies of letters that had been
sent to or received from Cuba Program grantees.7

Although exact grantee expenditure information was not readily available, we estimated
that 15 of the approximately 30 Cuba Program grantees—all U.S.-based nonprofit
organizations—met the A-133 audit threshold for various years from 2001 through
2006.8 These 15 grantees had estimated expenditures of more than $40 million. Four of
these grantees, with estimated expenditures of nearly $12 million, submitted audit
reports to the Clearinghouse for each year that we estimated met the A-133 threshold.
Seven grantees, with estimated expenditures of nearly $6.5 million, did not submit audit
reports during these years. Of the remaining four grantees, with estimated expenditures
of approximately $22 million, two had submitted audit reports for some of the years in
question, and two had not submitted reports for the years in question.

USAID was not able to ensure that its A-133 audit universe was complete and that
required audits for Cuba Program grantees and other U.S.-based nonprofit organizations
were conducted for two reasons: (1) confusion over roles and responsibilities and (2)
lack of information flow to responsible parties. For example, OAA officials stated that
responsibility for ensuring that A-133 audits were conducted rested with the grantees,
not with USAID. Even though the ADS clearly assigns CAS the responsibility for
identifying and maintaining the audit universe for U.S.-based organizations and ensuring
that required audits are conducted, CAS officials stated that their A-133 responsibilities
were limited to monitoring the ATS database, conducting audit resolution, and following

6
  The Clearinghouse is the organization that the OMB designated to receive single audit reports
from Federal award recipients and to maintain a Government-wide database of these
submissions.
7
 We are not making a related recommendation at this time, as our concerns related to lack of
documentation will be addressed upon implementation of Recommendation No. 1.
8
    See page 21 for the methodology used to arrive at this estimate.

                                                                                             5
up on any systemic issues identified in the A-133 reports. In addition, CAS officials
stated that they enter grantees into the ATS database if a program office requests that
CAS conduct an accounting system evaluation. CAS is not otherwise routinely informed
of new awards or modifications increasing award amounts, and does not have a way of
knowing how much U.S.-based grantees expend each fiscal year. CAS is, therefore,
“left out of the loop” and cannot ensure that the U.S.-based nonprofit organization audit
universe is complete.

As a result, USAID could not ensure that required audits for Cuba Program grantees
were conducted, increasing the risk that USAID funds are not being spent in accordance
with laws and regulations, and that USAID is not getting the full value from its awards.
For example, CAS recently conducted a review of a Cuba Program grantee, which
according to our initial estimate exceeded the A-133 threshold for 2005, and determined
that the grantee’s accounting system was inadequate.9 CAS found, on a preliminary
basis, more than $800,000 in questioned labor and other direct costs, nearly 50 percent
of the monies the grantee had expended to date. Additionally, CAS is questioning, on a
preliminary basis, more than $550,000 of the grantee’s cost share contributions.10 As
discussed on page 13, USAID relies on A-133 audits in lieu of grantee documentation of
expenditures, putting these funds at risk if required audits are not conducted.

USAID’s Cash Management and Payment (CMP) Division personnel indicated that a
Phoenix report could be run each year by grantee, by beginning and end dates of the
grantee’s fiscal year, and would display the dollar amounts disbursed by USAID during
that time period.11 This report could be used to construct the annual A-133 audit
universe. Furthermore, with proper collaboration, as USAID moves to implement its new
procurement system, the Global Acquisition System, the requirement to identify the
annual A-133 audit universe could be built into this new system.

Because the ADS clearly assigns CAS the responsibility for identifying and maintaining

9
  In response to our estimate that this grantee exceeded the 2005 A-133 threshold, USAID’s
Cash Management and Payment Division ran a special report, using grantee expenditure
information in Phoenix—USAID’s financial management system—showing that this grantee did
not exceed the threshold. This report, which we did not audit, is comparable to the type of report
described in footnote 11 below that we recommend USAID develop and use to identify the annual
A-133 audit universe.
10
   Cost sharing is used in certain grants and cooperative agreements, and requires grantees to
pledge a set amount of cash or in-kind contributions from non-Federal sources to assist in
achieving grant objectives.
11
  Although Phoenix includes grantee expenditures, according to CMP personnel, Phoenix
accumulates grantee expenditure date information in a nonsortable field; therefore, exact grantee
expenditure data by fiscal year are not currently available in a routinely produced report.
Although the A-133 audit requirement is based on grantee expenditures, not on Federal agency
disbursements to the grantee, this report, based on USAID disbursements, should be a
reasonable approximation of grantee expenditures for the following reasons: (1) if the grantee is
paid by monthly reimbursement, the grantee has already expended the funds, most likely within
the last 30 days; (2) if the grantee is paid by periodic advance, the grantee is required to expend
the funds within 30 days; (3) if the grantee is paid by letter of credit, the grantee is required to
expend the funds within 7 days. Therefore, this report would provide a reasonable basis for
USAID to determine whether an A-133 audit is required.


                                                                                                  6
the audit universe for U.S.-based organizations and for ensuring that required audits are
conducted, we are not making a recommendation to clarify CAS’ roles and
responsibilities. However, to address the lack of information flow and to ensure that
required A-133 audits for Cuba Program grantees and other U.S.-based nonprofit
organizations are conducted, we are making the following recommendations.12

      Recommendation No. 1: We recommend that the Director of USAID’s Office of
      Acquisition and Assistance, in collaboration with the Cash Management and
      Payment Division and other appropriate parties, develop a report that can be run
      for each grantee’s fiscal year to identify the annual audit universe of U.S.-based
      nonprofit organizations that meet the annual expenditure threshold amount under
      the Single Audit Act.

      Recommendation No. 2: We recommend that the Director of USAID’s Office of
      Acquisition and Assistance determine, for all active Cuba Program awards as of
      April 30, 2007, whether audits required under the Single Audit Act were
      conducted for all years covered under these awards, and if not, ensure that the
      required audits, for these grantees with fiscal years ending before April 30, 2007,
      are conducted.

Single Audit Act Requirements
Need to Be Clearly Articulated

     Summary: USAID policy requires that awards made to U.S. nonprofit organizations
     include a provision requiring the organization to contract with an independent non-
     Federal auditor to perform financial audits in accordance with OMB Circular No. A
     133. However, none of the six Cuba Program awards tested included this
     provision; instead, standardized award language indicated that all provisions of
     Title 22, Part 226 of the Code of Federal Regulations (22 CFR pt. 226) apply to the
     recipient. This was because USAID officials felt that pointing the grantee to the
     CFR was sufficient. In addition, A-133 audit requirements were not clearly
     articulated in the Cuba Program Annual Program Statement or in the standard
     assistance CTO designation letter. As a result, grantees may not have been aware
     of or understood the A-133 audit requirement, increasing the risk of misuse of
     program funds.

ADS 591 requires that awards made to U.S. nonprofit organizations include a provision
requiring the organization to contract with an independent non-Federal auditor to
perform financial audits in accordance with OMB Circular No. A-133.

However, none of the six Cuba Program awards tested included this provision. Instead,
the awards included standard provisions for U.S. nonprofit organizations, one of which
stated that all provisions of 22 CFR pt. 226 apply to the recipient. The CFR is the
codification of rules published in the Federal Register by U.S. Government agencies;
Part 226 concerns rules governing grants and cooperative agreements and includes
approximately 60 subparts—Section 226.26 covers non-Federal audits.

12
  For Recommendation No. 2, fiscal years ending before April 30, 2007 were selected to identify
the fiscal years for which OAA needs to ensure that the required audits were conducted.

                                                                                              7
The audit provision was not included in the grant agreements because OAA staff felt that
pointing the grantee to 22 CFR pt. 226 was sufficient and that it was impractical to cite
every provision in the grant agreement. Although the Cuba Program Director stated that
he has recently begun reviewing 22 CFR pt. 226 requirements with grantees, including
the audit provision in the grant agreements—as required by ADS 591—would highlight
the importance of this requirement. In addition, A-133 audit requirements were not
clearly described in the following two documents:

The Annual Program Statement (APS) – A-133 audit requirements were not clearly
articulated in the March 1, 2007 Cuba Program APS. An APS is used to generate
competition for new awards, instead of relying on unsolicited proposals. According to
ADS 303, Grants and Cooperative Agreements to Non-Governmental Organizations, an
APS for U.S. nonprofit organizations must state that 22 CFR pt. 226, OMB Circulars, and
USAID’s standard provisions will be applicable to the award. The APS included this
statement, and also described the A-133 audit requirement for sub-grantees. The APS
did not, however, state that primary grantees were subject to the A-133 audit
requirement, adding to possible grantee confusion about this important requirement.

Standard Assistance CTO Designation Letter – A-133 audit requirements are also
unclear in this letter. Although USAID’s standard assistance CTO designation letter
describes CTO monitoring duties related to the audit requirement for non-U.S.
organizations, it does not describe corresponding duties for U.S.-based nonprofit
organizations. In addition, the letter incorrectly states that the audit requirement is
based on the amount of the award, rather than on the amount expended (see footnote
4). This lack of clarity adds to the general confusion regarding A-133 audits and leads
CTOs to believe that they are responsible for monitoring only non-U.S. organizations’
compliance with this requirement.

As a result, Cuba Program grantees and CTOs may not have been aware of or
understood the A-133 audit requirement, increasing the likelihood that the required
audits were not conducted and increasing the risk of misuse of program funds.

Therefore, to reduce confusion surrounding the A-133 requirement for Cuba Program
grantees and other U.S.-based nonprofit organizations, we are making the following
recommendations.13

     Recommendation No. 3: We recommend that the Director of USAID’s Office of
     Acquisition and Assistance, for awards made to U.S. nonprofit organizations,
     revise the award language, as required by Automated Directives System
     591.3.1.1, to include a provision requiring the organization to contract with an
     independent non-Federal auditor to perform financial audits in accordance with
     the Office of Management and Budget’s Circular No. A-133.




13
  As stated on pages 2 and 5, Cuba Program grantees are U.S.-based nonprofit organizations.
As OAA did not differentiate between Cuba Program grantees and other U.S.-based nonprofit
organizations, Recommendation Nos. 3 and 5 apply to all U.S.-based nonprofit organizations.

                                                                                         8
     Recommendation No. 4: We recommend that the Director of USAID’s Office of
     Acquisition and Assistance revise the March 1, 2007 Annual Program Statement,
     USAID-Washingtonton-GRO-LMA-07-001-APS, to clearly state that the Office of
     Management and Budget’s Circular No. A-133 audit requirement pertains to
     primary grantees, as well as to sub-grantees.

     Recommendation No. 5: We recommend that the Director of USAID’s Office of
     Acquisition and Assistance revise the monitoring duties in the standard
     assistance cognizant technical officer designation letter to include the Office of
     Management and Budget’s Circular No. A-133 audit requirement for U.S.-based
     nonprofit organizations, and to clearly state that the requirement is based on the
     amount expended each year rather than the amount of the award.



Were responsibilities and authorities for implementing and
monitoring USAID’s Cuba Program clearly defined, assigned,
and performed?
Responsibilities and authorities for implementing and monitoring USAID’s Cuba Program
were not clearly defined, assigned, and performed. Six of 16 (approximately 37 percent)
responsibilities and authorities tested were not, or were not always, clearly defined,
assigned, or performed (see Appendix III). Although all the grantee reimbursement
requests tested were administratively approved before payment, expenditures under
periodic advances and letters of credit were not reviewed, and other responsibilities and
authorities tested were not clearly defined, assigned, or performed. For example, there
was confusion over responsibilities for classifying awards and for ensuring that the CTO
was properly designated, trained, and certified. These issues are discussed in the
following sections.

USAID Needs to Determine Whether
Awards Should Be Classified
Executive Order 12356, National Security Information, states that information should be
considered for classification if it concerns foreign government information, intelligence
activities, foreign relations or foreign activities of the United States, or a confidential
source. ADS 568, National Security Information and Counterintelligence Security
Program, states that USAID’s Director of Security has primary responsibility for carrying
out related security duties. In addition, the ADS gave the Assistant Administrator of the
Bureau for Latin America and the Caribbean (the Bureau) authority to classify
information at the confidential and secret level.

Some of USAID’s Cuba Program activities and assistance delivery methods are
considered classified. For example, in May 2007, the Government Accountability Office
(GAO) issued a classified version of its November 2006 audit report.14 This classified
version of the report included detailed information about the methods used to deliver

14
  U.S. Democracy Assistance for Cuba Needs Better Management and Oversight, Report No.
GAO-07-147, dated November 15, 2006.


                                                                                          9
USAID assistance to Cuba, steps taken to reduce losses of assistance shipped to the
island, and some of the recipients of assistance in Cuba. During the audit, USAID
officials expressed concerns regarding the need to protect the identities of dissidents
and recipients of assistance in Cuba. Because some of its activities are considered
classified—and this information is in the hands of its grantees—USAID needs to
determine whether the awards under which these activities are conducted should be
classified. At the time of the audit, none of the Cuba Program awards were classified.

USAID had not considered classifying Cuba Program awards because of confusion over
classification responsibilities and concern that classification would delay or halt program
activities. For example, in its formal written response to GAO’s draft audit report, USAID
stated that, “due to the nature of the program, detailed grantee narrative reports could
contain sensitive information which the Cuba Program Office (the Office) does not have
the authority to classify.” As mentioned above, however, the Assistant Administrator of
the Bureau, to whom the Deputy Assistant Administrator responsible for the Office
reports, has authority to classify information at the confidential and secret levels. When
asked whether the activities and awards should be classified, the Cuba Program Director
stated that someone at a higher grade level would need to make that determination. He
also stated that at the beginning of the program, USAID had decided that the program
and its activities would not be classified. In addition, he expressed concern that it could
“take years” for some grantees to obtain the security clearances required if the awards
were classified.

As a result, information that may need to be protected is at risk of inappropriate
disclosure. Therefore, to reduce this risk, we are making the following recommendation.

      Recommendation No. 6: We recommend that the Cuba Program Director, in
      collaboration with the Deputy Assistant Administrator of the Bureau for Latin
      America and the Caribbean and the Director of the Office of Security, make a
      written determination whether the Cuba Program awards should be classified.

Cognizant Technical Officer
Should Be Certified

     Summary: USAID policy requires that CTOs be designated using a standardized
     designation letter and be certified within 1 year of designation. However, the Cuba
     Program CTO was not properly designated, had not received CTO training, and
     was not certified. This was due to confusion over duties and to lack of
     communication among responsible offices. As a result, Cuba Program grantees
     were not monitored sufficiently and USAID did not receive full value from all its
     awards.

ADS 303, Grants and Cooperative Agreements, states that the agreement officer should
designate the CTO for each grant or cooperative agreement using the standard
designation letter.15 In addition, General Policy Notice 05-13, CTO Training and
Certification Program, requires that all individuals appointed as CTOs meet the Agency's

15
  The requirement to designate CTOs using a standard designation letter became effective on
August 26, 2004, when USAID issued Acquisition and Assistance Policy Directive 04-10.

                                                                                           10
mandatory training and certification program requirements, either (1) before the issuance
of their CTO appointment letter, (2) within 1 year of issuance of the appointment letter, or
(3) by the effective date of the Notice, September 25, 2005, whichever comes later. This
General Policy Notice requires that bureaus to which CTOs are assigned maintain up-to
date master lists of their CTOs to ensure that individuals requiring training receive it on a
timely basis. The Notice requires bureaus to verify with the CTO training coordinator in
USAID’s Training and Education Division that their CTOs’ training and certification status
is up to date.

As a practical matter, agreement officers do not have sufficient technical expertise or
time to ensure successful administration and completion of all aspects of each award.
Therefore, they rely on CTOs to act for them with respect to certain critical administrative
actions and technical issues arising under these awards. It is the CTOs’ responsibility to
ensure, through liaison with grantees, that the technical and financial aspects of the
awards are realized. For that reason, agreement officers are required to delegate these
critical tasks by designating a properly trained individual to serve as the CTO for each
award.

The Cuba Program Director was the designated CTO for all Cuba Program awards since
the program’s inception in 1996. Although USAID policy requires that CTOs be trained
and certified within a year of designation, the designated CTO had not received CTO
training and was not certified. In addition, the CTO was still being designated in the
award itself—by title rather than by name—rather than by the required designation letter.
The designation letters are important because they delineate CTO responsibilities, such
as monitoring the grantee’s progress toward program objectives and various financial
management duties, and the limits of the CTO authority. The letters also describe
standards of conduct and conflicts of interest.

The designated CTO did not have the required CTO training and was not certified
because of confusion over duties and lack of communication among the offices
responsible for overseeing CTO certification. For example, because the Cuba Program
Director was listed in OAA’s computerized procurement system, called the New
Management System (NMS), the agreement officer assumed the Program Director was
a certified CTO. Because the Program Director was on OAA’s NMS list and had 35
years of USAID experience, both he and the agreement officer assumed that he was
“grandfathered in” as a certified CTO. Additionally, the Bureau relied on OAA, did not
monitor the CTO certification process, and did not verify with the CTO Training
Coordinator in USAID’s Training and Education Division whether the designated CTO’s
training and certification status was up to date. Therefore, the fact that the designated
CTO was not certified “fell through the cracks.”

As a result, Cuba Program grantees were not monitored sufficiently, and USAID did not
receive full value from all its Cuba Program awards. For example, because the CTO did
not understand the full scope of his duties, monitoring and oversight of Cuba Program
grants did not provide adequate assurance that funds were used properly or that grants
were implemented properly, as GAO stated in its recent report (see footnote 14). A
more specific example is the recent cost share waiver for a Cuba Program grantee,
amounting to approximately $129,000. One of the justifications for the waiver was that
USAID did not verify the grantee’s cost share contributions. Verifying that the grantee’s
activities, such as cost sharing, conform to the terms and conditions of the award is an
essential CTO duty described in the CTO letter.

                                                                                          11
Part of the confusion over issuing CTO letters, training, and certification may result from
the fact that policies established in Acquisition and Assistance Policy Directive 04-10
and several General Policy Notices have not been consistently incorporated into
USAID’s ADS. For example, ADS 202, Achieving, has not been updated to reflect the
requirement that agreement officers should designate the CTO for each grant or
cooperative agreement using the standard CTO designation letter. Although ADS 303
was revised to include the standard designation letter requirement, it does not specify
training and certification requirements.

USAID, along with all other executive branch agencies, is currently implementing a Web-
based, Government-wide system, called the Acquisition Career Management
Information System (ACMIS), which is designed to track the training of USAID’s
acquisition workforce. USAID now requires its CTOs to register in ACMIS. USAID
officials believe that this system will improve its monitoring of CTO training and
certification.

To reduce confusion over critical CTO duties and to ensure that CTOs have the required
training and are certified, we are making the following recommendations.

   Recommendation No. 7: We recommend that the Director of USAID’s Office of
   Acquisition and Assistance, in collaboration with the Director of the Executive
   Management Team for the Bureau for Latin America and the Caribbean, appoint
   an individual to periodically verify that Bureau cognizant technical officers register
   in the Acquisition Career Management Information System, and appoint an
   individual to periodically verify with USAID’s Training and Education Division that
   cognizant technical officer training and certification status is up to date, as
   required by USAID’s General Policy Notice 05-13.

   Recommendation No. 8: We recommend that the Director of USAID’s Office of
   Acquisition and Assistance revise Automated Directive System 303 and other
   relevant Automated Directive System chapters, to incorporate Acquisition and
   Assistance Policy Directive 04-10, General Policy Notice 05-13, and other related
   cognizant technical officer policies.

   Recommendation No. 9: We recommend that the Director of USAID’s Office of
   Management Policy, Budget, and Performance, in collaboration with USAID’s
   Office of Acquisition and Assistance, revise Automated Directive System 202, to
   incorporate Acquisition and Assistance Policy Directive 04-10, General Policy
   Notice 05-13, and other related cognizant technical officer policies.




                                                                                            12
Periodic Advances and Letters of Credit 

Need Cognizant Technical Officer Review 


     Summary: Federal regulations require that grantees be paid in advance if certain
     conditions are met, or paid by reimbursement if those conditions cannot be met.
     USAID policy requires that CTOs administratively approve grantee reimbursement
     requests and review financial status reports for U.S. organizations with letters of
     credit; however, there is no requirement that the CTO approve or review USAID or
     grantee disbursements made under periodic advances. Although the CTO
     administratively approved all reimbursement requests tested, the CTO did not
     review financial status reports for grantees with letters of credit or periodic
     advances. The CTO stated that he felt reviewing the status of advances and
     payments during site visits was sufficient. As a result, USAID does not have an
     appropriate level of assurance that funds have been expended in accordance with
     the terms and conditions of the award.

OMB Circular No. A-110 requires that grantees be paid in advance if certain conditions
are met, or paid by reimbursement if those conditions cannot be met. ADS 630,
Payables Management, requires CTOs to administratively approve grantees’ requests
for reimbursement.16 USAID uses this administrative approval as an alternative to a
receiving report and as evidence that grant work is proceeding satisfactorily. The ADS
also states that CTOs should not routinely request all the supporting documentation
backing up a payment request because annual audits provide reasonable assurance
that reimbursement is only claimed for eligible, supported costs.

ADS 630 states that payments made under letters of credit and periodic advances do
not require CTO administrative approval. However, the standard assistance CTO
designation letter requires CTOs to review—but not approve—financial status reports
(standard form 269) for U.S. organizations with letters of credit. There is no similar
requirement for CTOs to review USAID or grantee disbursements under periodic
advances.

USAID funded its Cuba Program grantees through three basic methods: monthly
reimbursements, periodic advances, or letters of credit. For the 11 awards on which we
performed limited payment test work:

      •	 Two awards were funded by monthly reimbursements for the entire award.

      •	 Two awards were funded by monthly reimbursement, switching to periodic
         advances after the first payment.

      •	 One award was funded by periodic advances for the entire award.

      •	 Six awards were funded by letters of credit.

16
  Grantees under the reimbursement method send a form, called Monthly Requests for Advance
or Reimbursement (standard form 270), to USAID’s Cash Management and Payment Division. A
staff member in this division attaches the administrative approval form to the grantee’s request
and forwards it to the CTO for administrative approval before payment to the grantee is made.

                                                                                             13
Monthly reimbursements for the two awards tested, totaling nearly $1.6 million, were
administratively approved by the CTO before payment. However, none of the periodic
advances tested, for awards totaling more than $16 million, showed evidence of CTO
review. Similarly, none of the letters of credit tested, for awards totaling more than $21
million, showed evidence of CTO review. Although financial status reports for letters of
credit and periodic advances were included in the CTO’s files on a hit-or-miss basis,
none of them showed evidence of CTO review. Reimbursements, typically used for
smaller awards, received more scrutiny than payments made by either letter of credit or
periodic advance, typically reserved for larger awards. Therefore, in this case, $1.6
million of expenditures were reviewed by the CTO, but approximately $37 million of
expenditures were not routinely reviewed.

The CTO said that he did not receive copies of periodic advance requests or payments
under letters of credit. He said that, instead, when he conducted site visits to grantees
with letters of credit, he reviewed the status of advances and payments and examined a
sample of bills paid with USAID funds. GAO pointed out in its recent report that
grantees said that USAID officials generally examined only a limited number of invoices
during their visits, and a Cuba Program staff member said that he typically spent about
an hour during site visits meeting with grantees and reviewing records. However, the
CTO reported that he spent more time with larger grantees and spent as much time as
he could reviewing grantee expenditures and operations.

Because of the absence of systematic and routine reviews of financial status reports for
letters of credit and periodic advances, USAID does not have an appropriate level of
assurance that funds expended under these mechanisms have been spent in
accordance with the terms and conditions of the award. Furthermore, this lack of
assurance is exacerbated by the fact that USAID was not able to ensure that audits
required for Cuba Program grantees under the Single Audit Act were conducted (see
page 4). Annual audits are an important internal control and help provide assurance that
payments are made only for eligible, supported costs. Routine review, at least for
reasonableness, would increase USAID’s ability to identify and correct inappropriate
grantee expenditures.

Therefore, we are making the following recommendation.

   Recommendation No. 10: We recommend that the Director of USAID’s Office of
   Acquisition and Assistance revise the monitoring duties in the standard
   assistance cognizant technical officer designation letter to require cognizant
   technical officers to review financial status reports for recipients with periodic
   advances, and to evidence the review of letters of credit and periodic advances
   by initialing and dating the financial status reports.

Other Matters
During the audit, we noted two other matters that need to be addressed, one related to
determining whether Cuba Program grantees should be vetted and the other related to
formally assessing Cuba Program Office staffing requirements. These matters are
discussed in the following sections.



                                                                                        14
USAID Needs to Determine Whether
Grantees Should Be Vetted
Although USAID does not have policies or procedures requiring vetting of Cuba Program
grantees, an official of USAID’s Office of Security stated that he believed Cuba Program
grantees should be vetted through the Office of Security, because the Cuban intelligence
service poses a significant threat to U.S. Government programs.17

According to USAID officials, Cuba Program grantees operate in an environment that
has suffered infiltration by the Cuban government, and most Cuban dissident groups
receiving assistance have been infiltrated by the Cuban government. For example,
USAID officials reported that several grantee offices have been broken into; some of the
break-ins were reported to the Federal Bureau of Investigation. In addition, recent
media reports support this environment of Cuban-government infiltration involving U.S.
Government grants. According to these sources:

      •	 A U.S. Government grantee sent $9,000 of U.S. Government funds (not USAID
         funds) to two women in Cuba, later learning that they were Cuban agents.18

      •	 A professor at a Cuba Program grantee university recently admitted that he had
         been a Cuban spy for nearly 30 years; the professor said that he had gathered
         and transmitted information about Cuban exile groups to Cuban intelligence
         agents.19

      •	 Cuba's intelligence service is stepping up activities in the United States because
         of the impending demise of Cuban leader Fidel Castro.20

Despite the increased risk that Cuba Program grantees may be infiltrated by the Cuban
government, awards have not been classified—which would have required grantees to
receive security clearances—and grantees have not been vetted through USAID’s Office
of Security. This is because vetting was not required. As a result, people allied with the
Cuban government could have access to sensitive information maintained by Cuba
Program grantees, increasing the risk of inappropriate disclosure, and possibly putting
recipients of USAID assistance at risk.




17
  Vetting refers to performing background checks on individuals or entities before giving them an
award. Vetting is less extensive in scope than the security clearance process required for
grantees with access to classified information.
18
  Reported in The Miami Herald, November 15, 2006. USAID policy prohibits the distribution of
cash on the island of Cuba.
19
   Reported on CNN.com, December 20, 2006. According to a Cuba Program official, the
professor was not being funded by USAID grants and was not involved with USAID-funded
programs.
20
     Reported in The Washington Times, April 6, 2007.


                                                                                              15
To address this risk, we are making the following recommendation.21

     Recommendation No. 11: We recommend that, if USAID determines that the
     Cuba Program awards should not be classified, the Cuba Program Director, in
     collaboration with the Deputy Assistant Administrator of the Bureau for Latin
     America and the Caribbean and the Director of the Office of Security, make a
     written determination whether current and future Cuba Program grantees, and
     their personnel, should be vetted.

Staffing Requirements Need
to Be Formally Assessed
In accordance with the Office of Personnel Management’s Human Capital Assessment
and Accountability Framework, USAID’s Human Capital Strategic Plan states that it will
identify and analyze human capital needs and competencies required to fulfill its
mandate and goals. This includes realigning staff to support program objectives,
identifying needed competencies and critical skill gaps, and rightsizing office staff. In
addition, GAO’s Standards for Internal Control in the Federal Government states that to
effectively manage human capital, management should ensure that skill needs are
continually assessed and that workforce skills match those necessary to achieve goals.
These standards also state that risks need to be identified and analyzed to determine
how these risks should be managed.

As GAO pointed out in its recent report (see footnote 14), the Cuba Program faces
significant challenges, including a difficult operating environment and program-related
managerial weaknesses. USAID’s Cuba Program is a high-risk program in that it is, by
necessity, managed out of Washington rather than through USAID’s customary field-
based mission model. Therefore, responsibilities generally performed by in-country
mission staff must be conducted by the Washington-based office. Because of the lack of
in-country presence, grantee internal control weaknesses pointed out by GAO, and
USAID monitoring and oversight deficiencies also noted in the GAO report, the Cuba
Program merits an augmented level of managerial oversight. Although the Office
reported that it has taken conscientious steps to address GAO’s concerns, USAID needs
to ensure that the staffing structure supports sustained implementation of these positive
actions.

The Office is a small unit run under the auspices of the Bureau for Latin America and the
Caribbean. At the time of our audit, the Office was staffed by a Program Director, a part-
time assistant, and a part-time political appointee. A personal services contractor had
left just before the audit for an overseas assignment and, as of the end of audit
fieldwork, had not been replaced. Additionally, the Program Director is retiring in the fall
of 2007 and a replacement has been selected. Although the Office is experiencing a
high level of personnel turnover, a formal assessment to identify and analyze its staffing
needs has not been conducted.


21
  As of the end of audit fieldwork, the Office of Inspector General is conducting an audit of the
adequacy of USAID’s antiterrorism vetting procedures. Because the subject of this Cuba audit
report is focused on USAID’s Cuba Program and is not related to antiterrorism, Recommendation
No. 11 addresses vetting of Cuba Program grantees only.

                                                                                              16
Bureau officials reported that they were trying to quickly replace some of the personnel
needed to carry on its Cuba program. As a result, a formal assessment was not
performed, and the Office is at an increased risk of not being able to fulfill its program
goals. As GAO indicated in its report, the Office had not provided adequate assurance
that grant funds were being used properly or that grantees were in compliance with
applicable laws and regulations. The current level of personnel turnover provides the
Bureau an opportunity to identify and analyze Office staffing needs, reducing the risk of
not being able to fulfill its program goals. Therefore, we are making the following
recommendation.

    Recommendation No. 12: We recommend that the Cuba Program Director, in
    collaboration with the Deputy Assistant Administrator of the Bureau for Latin
    America and the Caribbean (1) conduct analyses to identify Cuba Program
    Office staffing needs in terms of vulnerabilities, risk factors, and critical skill
    gaps, and (2) submit written recommendations regarding staffing needs to the
    Assistant Administrator of the Bureau for Latin America and the Caribbean.




                                                                                          17
EVALUATION OF
MANAGEMENT COMMENTS
In their response to our draft report USAID officials, for the most part, concurred with our
findings and recommendations, and described actions planned and taken to address our
concerns. As a result, we determined that final action has been taken on two
recommendations, while management decisions have been reached on eight
recommendations. However, management decisions were not reached on two of the
recommendations, as management’s response did not fully address our concerns.

Based on further review of documentation and information provided in management’s
response to our draft report, we agreed to remove a finding and the related
Recommendation No. 7 from our final report. To accommodate this revision, we
renumbered the recommendations, as described below.

In its response to Recommendation No. 1, USAID’s Office of Acquisition and Assistance
(OAA) agreed that its process for determining whether grantees had conducted and
submitted audits required under the Single Audit Act (A-133) could be improved.
However, its planned actions did not address our concerns related to identifying the
annual audit universe of U.S.-based nonprofit organizations that meet the annual
expenditure threshold amount. Therefore, a management decision has not been
reached on Recommendation No. 1. To reach a management decision, OAA needs to
provide us with its plans to identify the annual audit universe of U.S.-based nonprofit
organizations that meet the annual expenditure threshold amount.

To address Recommendation No. 2, OAA plans to work with the Cuba Program
cognizant technical officer (CTO) to ensure that required A-133 audits were completed,
and expects to complete this action by April 2008. Accordingly, a management decision
has been reached for this recommendation.

To address Recommendation No. 3, OAA plans to add the required provision to its
standard grant provisions by March 31, 2008. Accordingly, a management decision has
been reached for this recommendation.

To address Recommendation No. 4, OAA revised USAID-Washington-GRO-LMA-07
001-APS to clearly state that the A-133 audit requirement pertains to primary recipients
as well as to subrecipients. Accordingly, final action has been taken on this
recommendation.

To address Recommendation No. 5, OAA plans to revise the standard assistance CTO
designation letter by March 31, 2008. Accordingly, a management decision has been
reached for this recommendation.

To address Recommendation No. 6, USAID has made a written determination that the
current Cuba Program awards should not be classified. Accordingly, final action has
been taken on this recommendation.




                                                                                         18
To address Recommendation No. 7 (No. 8 in Management Comments), OAA will put a
verification plan into place by March 31, 2008. Accordingly, a management decision has
been reached for this recommendation.

To address Recommendation Nos. 8 and 9 (Nos. 9 and 10 in Management Comments),
USAID will revise ADS 303 and ADS 202 to include CTO policies, and expects to
complete these revisions by December 31, 2007. Accordingly, management decisions
have been reached for these recommendations.

In its response to Recommendation No. 10 (No. 11 in Management Comments), OAA
agreed to revise the standard assistance CTO designation letter to require the review of
financial status reports for recipients with periodic advances, and to make this revision
by March 31, 2008. However, OAA did not agree that CTOs should be required to
evidence their review by initialing and dating the reports. Instead, OAA feels that the
current documentation expectation in the CTO letter is sufficient. The current
expectation states that, “At a minimum, a reasonable individual would be expected to
document and provide justification for the action. Documentation does not need to be
formal or extensive, but should be easily understood by an auditor or other third party
individual reviewing it.” This documentation expectation is neither required nor clear.
Therefore, a management decision has not been reached on Recommendation No. 10.
To reach a management decision, OAA needs to provide us with a description of how
CTOs will document their required reviews of these reports.

To address Recommendation No. 11 (No. 12 in Management Comments), USAID
agreed to follow standard USAID vetting policy, when the vetting policy becomes
operational. The target date for completion is September 2008. Accordingly, a
management decision has been reached for this recommendation.

To address Recommendation No. 12 (No. 13 in Management Comments), Bureau for
Latin America and the Caribbean (LAC) officials will submit a comprehensive staffing
plan and budget for the Cuba Program to LAC’s Assistant Administrator by December
31, 2007.     Accordingly, a management decision has been reached for this
recommendation.




                                                                                      19
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted government auditing standards. The audit was
designed to answer the following questions:

•	 Did USAID ensure that audits required for Cuba Program grantees under the Single
   Audit Act were conducted?

•	 Were responsibilities and authorities for implementing and monitoring USAID’s Cuba
   Program clearly defined, assigned, and performed?

This report summarizes the results of audit work conducted at USAID/Washington from
February 15 to July 12, 2007. In planning and performing the audit, we assessed the
effectiveness of internal controls related to the audit objectives. For the first objective,
we looked for controls related to the completeness of USAID’s Office of Management
and Budget’s (OMB) A-133 audit universe for U.S. nonprofit organizations, and controls
to ensure that required A-133 audits were conducted. For the second objective, we
assessed the effectiveness of Cuba Program controls related to selected cognizant
technical officer (CTO) functions, such as those related to (1) training, (2) certification,
and (3) review of grantee monthly reimbursements, periodic advances, and letters of
credit. We assessed the effectiveness of controls related to selected Cuba Program
agreement officer functions, such as those related to CTO designation and award
language associated with the A-133 requirement.

We identified the following relevant criteria: the Cuban Democracy Act of 1992, the
Cuban Liberty and Democratic Solidarity (LIBERTAD) Act of 1996, the OMB’s Circular
No. A-133, and various USAID policies.            We also reviewed the Government
Accountability Office’s (GAO) audit report U.S. Democracy Assistance for Cuba Needs
Better Management and Oversight (Report No. GAO-07-147, dated November 15,
2006), which informed the development of the audit scope. Additionally, several findings
and Recommendation No. 1 from the OIG audit report, Audit of USAID’s Training, Use
and Accountability of Cognizant Technical Officers, directly affected CTO-related areas
reviewed in this audit.22

The audit scope for the first objective included determining whether USAID ensured that
Cuba Program grantees meeting the OMB Circular No. A-133 audit threshold amounts
between the years 2001 and 2006 had the required audits. The audit scope for the
second objective included determining whether selected Cuba Program responsibilities
and authorities for the CTO and agreement officer functions were defined, assigned, and
performed. In addition, the scope for the second objective included responsibilities
related to classifying awards and vetting Cuba Program grantees.

According to unaudited information provided by the Cuba Program Office, USAID
awarded approximately 40 grants and cooperative agreements totaling nearly $64
22
     Audit Report No. 9-000-04-003-P, dated March 31, 2004.


                                                                                         20
                                                                                APPENDIX I


million (including modifications) from the start of the program in 1996 through March
2007. The judgmental sample of six award agreements selected for detailed testing
represented 15 percent of the total number of agreements and nearly 40 percent of the
total dollar amount of Cuba Program awards. We also conducted testing limited to the
CTO’s review of financial status reports for grantees with letters of credit for five
additional agreements, totaling a little over $14 million.

Methodology
We conducted interviews with USAID officials in the Office of Acquisition and
Assistance, the Bureau for Legislative and Public Affairs, the Office of Security, the
Office of the General Counsel, and the Cuba Program Office to obtain information
related to the Cuba Program’s funding sources, legislative history, activities, grantees,
and awards. In addition, we coordinated with GAO audit staff responsible for the
November 2006 audit report previously mentioned, and with the OIG’s Investigations
Division. We also reviewed GAO’s classified report issued in May 2007.

To answer the first objective, we used an Obligations by Contract report, dated February
20, 2007, generated by Phoenix, USAID’s financial management system, which showed
liquidated obligations by award, and accumulated these amounts for each Cuba
Program grantee by fiscal year. We then determined whether those grantees exceeding
the A-133 threshold in a fiscal year, based on the date the obligated funds were
liquidated, had submitted an A-133 audit package to the Federal Audit Clearinghouse by
the cutoff date of May 9, 2007.23 We reviewed a judgmentally-selected sample of award
agreements, USAID’s standard assistance CTO letter, and the Cuba Program’s current
Annual Program Statement, to determine whether these documents included language
regarding the A-133 audit requirement. We also interviewed officials in USAID’s Office
of Acquisition and Assistance and the Cash Management and Payment Division.

To answer the second objective, we selected a judgmental sample of 21 CTO and
agreement officer responsibilities and authorities, using USAID’s Automated Directives
System 303, Grants and Cooperative Agreements, as the primary source. We tested
the selected responsibilities and authorities against source documents in a judgmentally
selected sample of award agreements and related CTO administrative files. We also
tested the sampled awards to determine whether expenditures for grantees under the
reimbursement method were administratively approved before payment, and whether
the CTO reviewed financial status reports for grantees operating under letters of credit
and periodic advances. We also interviewed USAID officials to determine how CTO and
agreement officer responsibilities and authorities for implementing and monitoring the
Cuba Program were defined, assigned, and performed.

We established the following parameters to answer the second objective:

     •	 “Clearly defined” meant there was a written policy, procedure, or job description
        for the task.
     •	 “Clearly assigned” meant there was documentation supporting delegation of the
        task.
23
  Because USAID did not have a routinely produced report detailing expenditures for U.S.-based
nonprofit organizations, we used the method described above to estimate grantee expenditures
by fiscal year.

                                                                                           21
                                                                                APPENDIX I 



    •	 “Clearly performed” meant there was documentation demonstrating that the task
       had been executed.

A task was considered designed, assigned, or performed if most of the awards tested
met the definitions above. A task was considered generally designed, assigned, or
performed if most of the awards tested met the definitions above, but with qualifications
or exceptions. A task was considered not designed, assigned, or performed if most of
the awards tested did not meet the definitions above. A task was considered not always
designed, assigned, or performed if some of the awards tested met the definitions
above, but with qualifications or exceptions.

We established the following materiality thresholds for the second objective:

   •	 If at least 90 percent of the responsibilities and authorities tested were—or were
      generally—designed, assigned, or performed, the answer to the audit objective
      would be positive.

   •	 If at least 80 percent, but less than 90 percent, of the responsibilities and
      authorities tested were—or were generally—designed, assigned, or performed,
      the answer to the audit objective would be qualified.

   •	 If less than 80 percent of the responsibilities and authorities tested were—or
      were generally—designed, assigned, or performed, the answer to the audit
      objective would be negative.

We did not determine a materiality threshold for the first objective, because it was not
appropriate to this objective.




                                                                                        22
                                                                              APPENDIX II 





MEMORANDUM

TO:	           IG/A/PA Director, Steven H. Bernstein

FROM:	         LAC/Cuba Program Director, David E. Mutchler /s/
               M/OAA/OD Director, Michael F. Walsh /s/
               M/MPBP/POL Senior Policy Advisor, Subhi Mehdi /s/

SUBJECT:	      Agency Response to the Draft Report of the Office of Inspector General
               (OIG) Audit of USAID’s Cuba Program (Report No. 9-516-07-00X-P)

This memorandum transmits our response to the subject draft audit report, as requested
in your memorandum of August 10, 2007. Please consider the information we have
provided, which includes the responses from the Cuba Office of the Latin America and
the Caribbean Bureau and the Office of Acquisition and Assistance (M/OAA) and the
Office of Management Policy, Budget and Performance (M/MPB/POL) of the
Management Bureau, in finalizing your report and in closing out a number of the
recommendations you have made. We greatly appreciate your staff’s efforts to improve
this extremely important program.

Recommendation 1

M/OAA concurs with the OIG that its process for determining whether USAID’s
assistance recipients have filed an OMB Circular A-133 (“A-133”) audit, as appropriate,
can be improved. As we discussed with the OIG, every year the Contract Audit and
Support Division (CAS) sends letters to each assistance recipient that has not sent an A
133 audit to the Agency. The letters ask each recipient to send its A-133 audit to
USAID, and the recipient replies by either submitting the required audit or stating that it
did not need an audit because it did not meet the Federal expenditure threshold that
would require such an audit. CAS plans to improve this process to meet the OIG’s
concern by (1) keeping as records the letters sent to recipients and subsequent
responses for later reference and (2) following up with respondents that indicate that
they do not meet the threshold for A-133 audits with additional requests for information
(such as copies of the recipient’s ledgers showing annual expenditures), as appropriate,
to support the respondents’ statements and documenting the results. CAS expects to
complete these actions by February 2008.

As mentioned in the OIG draft report, the Phoenix system does not readily provide exact
recipient expenditure information. CAS believes that its process improvements will
provide a more accurate record of recipients’ annual expenditures.

Recommendation 2

M/OAA concurs with this recommendation and will work with the Cognizant Technical
Officer (CTO) to determine, with respect to funds awarded by USAID, whether active
Cuba Program grant recipients should have filed an A-133 audit for each of the years



                                                                                         23
                                                                             APPENDIX II 



covered by their assistance agreements, and if so, that they file A-133 audits for the
appropriate years. These actions are expected to be completed by April 2008.

Recommendation 3

While M/OAA maintains that incorporating the A-133 audit requirements by reference to
22 CFR 226 in its standard grant provisions satisfies the requirements of ADS 591.3.1.1,
and remains concerned about making its grant agreements unwieldy by including
additional clauses that are otherwise found in 22 CFR 226, M/OAA agrees with the OIG
that highlighting this important provision will improve USAID grants. Therefore, M/OAA
will draft and include a provision in its standard grant provisions that will require a
recipient to contract with an independent non-Federal auditor to perform financial audits
in accordance with A-133, as appropriate. M/OAA expects to complete this by March
31, 2008.

Recommendation 4

M/OAA concurs with this recommendation. On July 10, 2007, M/OAA revised the annual
program statement USAID-Washington-GRO-LMA-07-001-APS to clearly state that the
A-133 audit requirement pertains to primary recipients as well as to subrecipients. A
copy of the revised language was previously provided to OIG. We request that this
recommendation be considered closed.

Recommendation 5

M/OAA concurs with this recommendation and has provided to OIG a copy of the draft
change to the standard assistance cognizant technical officer designation letter. The
change is expected to be published by March 31, 2008.

Recommendation 6

Pursuant to this recommendation, the Cuba Program Director, in collaboration with the
Deputy Assistant Administrator for Latin America and the Caribbean (LAC) and the
Director of the Office of Security, has made a written determination that the current Cuba
Program awards should not be classified. This determination has been provided to OIG.
We request that this recommendation be considered closed.

Recommendation 7

M/OAA disagrees with the findings made by the OIG with regard to Recommendation 7
and therefore does not concur with that recommendation. The Draft Report states
“…costs have not been questioned and USAID has not determined if it received full
value from its award.” Furthermore, the Draft Report states, “…consulting fees paid to
officers of one grantee appear excessive and were set by way of less-than-arms-length
transactions.”1 However, after reviewing the award files in question and the applicable
regulations, we have found that in fact the Agreement Officer made a determination that
the consultant fees were fair and reasonable. Therefore, we believe that an audit to
determine whether compensation paid under subcontracts was reasonable, allocable,
and allowable is unjustified.

1
    Draft Report, p. 10.

                                                                                         24
                                                                                          APPENDIX II



According to USAID procedure, prior to the award of a grant or cooperative agreement,
the Agreement Officer conducts a cost analysis of a grantee’s proposal and determines
whether particular costs in the proposed budget are reasonable.2 In the case of the
grantee in question, the Agreement Officer determined that the consultancy rates were
reasonable and documented this determination in the negotiation memoranda.3 The
negotiation memoranda also indicate that the Agreement Officer was aware of the
identity of the particular consultants and therefore was aware of the less-than-arms
length nature of the proposed contracts.4 Still, the Agreement Officer determined that
the proposed budget was reasonable. Because the Agreement Officer makes the
ultimate determination as to whether a particular rate is reasonable or not, an audit
would not change this decision. Therefore, M/OAA does not concur with this
recommendation.

The Draft Report states, “Annual compensation scheduled to be paid to each officer
ranged from $18,000 in 1999 to $30,000 in 2006, totaling nearly $500,000 paid to the
three officers in total from 1999-2006. The $150 per hour rate amounts to an annualized
salary of $312,000. This would significantly exceed the average salary for a non-profit
executive director—which ranged from approximately $82,000 in 1999 to almost
$105,000 in 2006—typically used to determine reasonable compensation. Using this
comparison point, the officers were paid at an hourly rate nearly 4 times what would
have been considered reasonable in 1999, and nearly 3 times what would have been
considered reasonable in 2006.”

M/OAA insists that the inclusion of the figure of $312,000 annualized salary is
misleading. In fact, each consultant was only scheduled to be paid between $18,000 and
$30,000 annually from 1999-2006. In addition, a full time salaried employee is
compensated in a substantially different manner than a paid consultant. Annualizing a
consultant’s hourly rate miscorrelates reasonable compensation for a salaried full-time
non-profit executive. Therefore, the statement that the consultants were paid at an
hourly rate nearly 4 times what would have been considered reasonable is misleading as
well.

The Draft Report states that “although these hours and hourly rates are mentioned in the
new contracts, the contracts in the award file at the time of our audit stated that the
consultants would be paid $3,000 monthly, rather than an hourly rate times the actual
hours worked.”5 However, in fact the Agreement Officer’s subcontract approval letter

2
  See ADS 303.3.12(a). 

3
  We reviewed the following negotiation memoranda from the agreement files: 

For LAG-A-00-99-00023, 

      1. Signed on August 20, 1999 by Dana P. Doo-Soghoian, Agreement Officer
      2. Signed on July 18, 2000 by Dana P. Doo-Soghoian, Agreement Office
      3. Signed on August 30, 2001 by Dana P. Doo-Soghoian, Agreement Office
      4. Signed on September 30, 2002 by Dana P. Doo-Soghoian, Agreement Officer.
For RLA-A-00-07-00009, Negotiation Memorandum signed on January 18, 2007 by Georgia Fuller,
Agreement Officer.
4
  See, e.g., Memorandum of Negotiation, dated August 20, 1999, p. 4 (“Three of the key personnel are
contracted out under this agreement, including the editor. Each of these individuals are being compensated
at $18,000 for the period of performance. Resumes were submitted with their proposal and are part of the
agreement file.”)
5
  Id.


                                                                                                       25
                                                                                      APPENDIX II


dated February 12, 2007 clearly states the hourly rate, monthly rate, not to exceed rate
for the period of the contract and the number of hours per month.6

Separate and apart from the OIG’s discussion of the amounts paid to these consultants,
the OIG also identified a possible issue regarding the grantee’s filings with the Internal
Revenue Service. Under normal practice, if the LAC Bureau or M/OAA were to discover
information that may provide reasonable grounds to believe that a grantee has
committed a crime, the OIG investigators (IG/I) would be notified.7 After conducting its
investigation, IGI would then be able to determine whether there is reasonable evidence
to suggest that criminal laws have been violated. If such evidence was present, IGI
would then be required to notify the Department of Justice in accordance with the
Inspector General Act.8 We recommend the OIG take whatever action the OIG believes
is warranted to notify the Department of Justice.

Finally, M/OAA has identified two statements in this section that would benefit from
additional elaboration:

a. The Draft Report states, “The officers considered themselves to be independent
contractors and stated in an email in the award file that they do not prepare time sheets
or activity reports”.9 However, upon learning that the grantees consultants had not kept
time sheets, the grantee was informed that the consultants should keep a record of the
time devoted to the project. M/OAA asks that the Final Report reflect the action that was
taken.

b. The Draft Report states, “Because we did not conduct an audit of this grantee and its
subcontracts we could not definitively determine that amount of compensation that could
be considered as a questioned cost.”10 However, we recommend that the Final Report
reflect the fact that M/OAA/CAS conducted a pre-award audit in 1999 of this grantee and
determined that the grantee had adequate accounting and personnel policies and an
adequate chart of accounts. CAS recommended that M/OAA ensure that the grantee
had properly implemented its accounting system through a follow up accounting system
review, and a follow-up audit conducted by M/OAA/CAS determined that the
recommendation identified in the pre award audit would be closed.

Recommendation 8

M/OAA, the LAC Bureau, and the Training and Education Division of the Office of
Human Resources (HR) recognize the OIG concerns identified in this section of the
report. Consequently, the Director of M/OAA will clarify M/OAA’s responsibilities in
relation to this recommendation, working with HR and the LAC Bureau Executive
Management Team, and will work with those organizations to implement this
recommendation by putting in place a verification plan no later than March 31, 2008.




6
  See Subcontract Approval Letter dated February 12, 2007 for Agreement RLA-A-00-07-0009-00. 

7
  See by analogy, ADS 625.3.4.7. 

8
  See Inspector General Act of 1978, sec. 4(d). See also ADS 101.3.1.10(b).

9
  Draft Report, p. 10.

10
   Draft Report, p. 11.


                                                                                                 26
                                                                             APPENDIX II 



Recommendation 9

M/OAA concurs with this recommendation. M/OAA will revise ADS 303 to incorporate
Acquisition and Assistance Policy Directive 04-10, General Policy Notice 05-13 and
other pertinent CTO policies. M/OAA expects to complete this action no later than
December 31, 2007.

Recommendation 10

M/MPB/POL concurs with this recommendation and will revise ADS 202 with the text
previously provided to OIG. It is expected that ADS 202 will be amended by December
31, 2007.

Recommendation 11

M/OAA concurs with the first part of the recommendation, and requests that, after
reconsideration by OIG, the second part of the recommendation be either removed or
closed. The Assistance CTO designation letter (in Section I.C.) requires, among other
things, that CTOs review the recipients’ financial reports, monitor the financial status
awards on a regular basis and review the “financial status reports for U.S. organizations
with letters of credit…” “Letters of credit” are specifically mentioned in the CTO letter;
“periodic advances” are not specified in the letter. Therefore, M/OAA accepts the audit
recommendation to add “periodic advances” and will revise the CTO assistance letter to
include “periodic advances” no later than March 31, 2008.

The second part of the audit recommendation requests that the CTO letter be revised to
require the CTO to “evidence the review of credit and periodic advances by initialing and
dating the financial status reports.” There is language currently in the Assistance CTO
letter (see the top of page 2) that states that the CTO is expected to take reasonable
steps to assure that the recipient has submitted all required financial reports “and
document and provide justification for the action. (The documentation need not be
formal or extensive, but it should be easily understood by an auditor or other third part
individual reviewing it.)” M/OAA requests that the OIG consider the existing
documentation requirement in the CTO letter to be adequate to address the audit
recommendation’s concern for “evidence” of the review of the periodic reports, and to
remove the second part of the audit recommendation or consider it closed.

Recommendation 12

LAC concurs with this recommendation and will follow standard USAID policy on vetting
once that policy has been put into operation. The target date for completion is
September 2008.

Recommendation 13

LAC concurs with this recommendation. LAC will review the Government Accountability
Office and OIG audit findings, as well as the LAC Financial Managers’ Financial Integrity
Act vulnerability assessments, and will then list the principal tasks that the Cuba
Program needs to undertake during the next two years. Based on that analysis, by
December 31, 2007, LAC will draft, review and submit to AA/LAC for approval a
comprehensive staffing plan and budget for the USAID Cuba Program.

                                                                                        27
                                                                                                 APPENDIX III


                 RESPONSIBILITIES AND AUTHORITIES TESTED1

    Test   Responsibility or Authority Tested         Defined   Assigned   Performed              Comments
                                                                                       We determined that the
           Was there certification in the contract
     1                                                  n/a       n/a         n/a      certifications were not
           file that proposal was unsolicited?
                                                                                       necessary.
           Did the award file contain justification
     2                                                  n/a       n/a      Performed
           for an exception to competition?
           Did the award file contain certification                                    We determined that the
     3     that the proposal was unique,                n/a       n/a         n/a      certifications were not
           innovative, or proprietary?                                                 necessary.
           If the grant/cooperative agreement
           was awarded without competition, did
     4                                                  n/a       n/a      Performed
           proposal meet minimum
           requirements?

           When a new or increased award was
           negotiated, was there documentation
           that the agreement officer requested
                                                                           Generally
     5     the most recent A-133 audits from the        n/a       n/a
                                                                           Performed
           recipient? Or was there evidence to
           show that the A-133 audit was
           reviewed?

           During the close-out process, was
           there documentation showing that the
           agreement officer requested the most
                                                                                       None of the awards tested
     6     recent A-133 audits from the                 n/a       n/a         n/a
                                                                                       were in close-out.
           recipient? Or was there evidence to
           show that the A-133 audit was
           reviewed during closeout?

           Were there questioned costs for a
                                                                           Generally
     7     recipient that received a new award or       n/a       n/a
                                                                           Performed
           cost modification?
           Was there documentation showing a
     8     competitive process for recent               n/a       n/a      Performed
           awards?
           Did grant/cooperative agreement                                             Awards did not include
           contain language precluding use of                                          language regarding NED
     9                                                  n/a       n/a         n/a
           National Endowment for Democracy                                            funds. However, such
           (NED) funds for cost share?                                                 language was not required.

           Was there supporting documentation                              Generally
    10                                                  n/a       n/a
           for cost share?                                                 Performed

           Was there documentation verifying
           that the recipient met the minimum                              Generally
    11                                                  n/a       n/a
           cost share before receiving a new or                            Performed
           increased award?

           Was cost share waived or was a                                     Not
    12                                                  n/a       n/a                  See Recommendation No. 7.
           waiver pending?                                                 Performed

           Did the award include language              Not
    13                                                            n/a         n/a      See Recommendation No. 3.
           regarding necessity of A-133 audits?       Defined
                                                                                       USAID policy does not
           Did the award include an audit rights
    14                                                  n/a       n/a         n/a      specifically require audit
           clause?
                                                                                       rights language in awards.
                                                                  Not         Not
    15     Was the award classified?                    n/a                            See Recommendation No. 6.
                                                                Assigned   Performed


1
    See pages 21 and 22 for the guidelines used to determine how the test results were evaluated.


                                                                                                                 28
                                                                                                     APPENDIX III 




Test   Responsibility or Authority Tested         Defined        Assigned     Performed             Comments
       Did the award file include the
                                                   Not             Not           Not       See Recommendation Nos.
 16    standard cognizant technical officer
                                                  Defined        Assigned     Performed    7, 8, and 9.
       designation letter?

       Did the agreement officer conduct a
       survey to help make the responsibility
       determination that the recipient has                                   Generally
 17                                                 n/a            n/a
       the necessary management                                               Performed
       competence to plan and carry out an
       assistance program?
       If there was uncertainty as to the
       applicant's capacity to perform, did
                                                                              Generally
 18    the agreement officer establish a            n/a            n/a
                                                                              Performed
       formal survey team to help make the
       responsibility determination?
       Did the agreement officer make a
       written determination of the
 19                                                 n/a            n/a        Performed
       applicant's responsibility in the
       memorandum of negotiation?
       Did the agreement officer take actions                                              Minimal actions specified, but
                                                                              Not Always
 20    to minimize the risk that a high-risk        n/a            n/a                     actions not always
                                                                              Performed
       recipient presents to USAID?                                                        performed.
       Were expenditures by monthly
                                                    Not             Not
       reimbursement administratively                                         Not Always   See Recommendation No.
 21                                               Always          Always
       approved? Were letters of credit and                                   Performed    10.
                                                  Defined        Assigned
       periodic advances reviewed?

SUMMARY

Performed or Generally Performed                            10                62.5%
Not or Not Always Defined, Assigned, or Performed             6               37.5%
                                                          ________          ________

                                                            16               100%
Responsibilities and authorities not applicable
to the awards tested                                         5                 --
                                                          ________          ________
                                                            21               100%




                                                                                                                     29
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
